                        January 24, 2000

                        DENNIS M. BACA
                        MANAGER, ENVIRONMENTAL MANAGEMENT POLICY

                        SUBJECT: Management Advisory Report - Asbestos
                                 Abatement at United States Postal Service
                                 Facilities (Report Number FA-MA-00-001)

                        This letter addresses concerns regarding the health and
                        safety of Postal Service employees at facilities, where
                        required, asbestos abatement may not have been
                        performed. These concerns were discovered during an
                        ongoing investigation of a telecommunications contractor.

Background              The Office of Inspector General (OIG) was conducting an
                        investigation of a telecommunications contractor. According
                        to its contract, the general contractor was responsible for
                        installing telecommunication wiring in approximately 8000
                        postal facilities nationwide. Due to the age of some of these
                        postal facilities, asbestos abatement was necessary if
                        asbestos-containing materials were disturbed during the
                        installation of telecommunication wiring. The Postal Service
                        identified 186 postal facilities that required asbestos
                        abatement under this contract.

Objective, Scope, and   The objective of our review was to determine if the
Methodology             contractor performed the asbestos abatement work that was
                        required if asbestos-containing materials were disturbed
                        during the installation of telecommunication wiring in postal
                        facilities. During the review, we conducted interviews with
                        the Postal Service Manager, Environmental Management
                        Policy, headquarters officials, the prime contractor, and
                        Postal Service telecommunications officials in Raleigh,
                        North Carolina. We also made site visits to various postal
                        facilities.

                        This review was conducted from October 1999 through
                        January 2000, in accordance with the President’s Council
Asbestos Abatement at                                                                 FA-MA-00-001
 United States Postal Service Facilities


                                 on Integrity and Efficiency, Quality Standards for
                                 Inspections. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

 Asbestos Abatement              Between October 1998 and February 1999, the OIG and the
                                 Postal Service conducted inspections of several facilities
                                 and determined that in some instances the electrical
                                 subcontractors were paid for incomplete, defective or never-
                                 completed work. As of October 1999, the OIG and the
                                 Postal Service had identified several million dollars in
                                 improper billings for wire installations, which the contractor
                                 has agreed to remit to the Postal Service. Based upon this
                                 finding, the general contractor conducted additional
                                 compliance inspections, in October 1999, of several postal
                                 facilities and also determined that in some instances,
                                 asbestos abatement was never completed. As of
                                 November 1999, the investigation had disclosed that the
                                 Postal Service was invoiced and paid about $869,000 for
                                 asbestos abatement at approximately 186 postal facilities.

 Suggestions                     Based on our limited review, we suggest that the manager,
                                 Environmental Management Policy:

                                 1. Obtain copies and assemble all pertinent
                                    environmental/asbestos (i.e. Site Surveys, PS 8210,
                                    Asbestos Disposal Verification forms, Waste Shipment
                                    forms, etc.) forms from the facilities for OIG review.
                                    (Each subcontractor was required to complete these
                                    forms before and/or after abatement.)

                                 2. Designate Postal Service environmental coordinators or
                                    other competent personnel in the appropriate district
                                    offices to conduct inspections of each identified facility to
                                    verify and document if abatement was actually
                                    performed.

                                 3. If the asbestos was not removed, determine if it was
                                    disturbed and assess if potential health or safety risks
                                    exist, and initiate corrective actions immediately.

                                 4. Record all costs incurred by the Postal Service to
                                    complete the above requests.




                                                     2
                                           Restricted Information
Asbestos Abatement at                                                               FA-MA-00-001
 United States Postal Service Facilities


 Management’s                    The manager, Environmental Management Policy indicated
 Comments                        agreement with our suggestions and stated that a
                                 memorandum to be signed by the vice presidents of
                                 Engineering and Human Resources would be sent to the
                                 area vice presidents detailing the actions to remedy the
                                 concerns raised by the OIG. On December 20, 1999, a
                                 memorandum addressed to the area vice president was
                                 signed requesting that each area vice president direct each
                                 district to conduct a visual surveillance of the condition of
                                 each facility that may have been impacted by the wiring
                                 installation by January 7, 2000. The memorandum also
                                 stated that If the surveillance indicates a potential hazard,
                                 the area vice presidents should take immediate steps to
                                 document and correct the conditions.

                                 In addition, the memorandum instructed the area vice
                                 presidents to direct each district to assemble all pertinent
                                 environmental/asbestos surveys, PS 8210, Asbestos
                                 Disposal Verification forms for review. Further, the area
                                 vice presidents were to appoint an area point of contact to
                                 coordinate this effort and provide the names of the contacts
                                 to the asbestos program manager, Environmental
                                 Management Policy and to the Office of the Inspector
                                 General’s Facilities Program Office. Finally, the area vice
                                 presidents were to record all costs incurred to complete the
                                 above suggestions. We have summarized management’s
                                 comments and included the full text in the appendix.

 Evaluation of                   Management’s comments are responsive to our
 Management’s                    suggestions.
 Comments

                                 We appreciate the cooperation and courtesies provided by
                                 your staff during this review. If you have any questions,
                                 please contact Anthony T. Cannarella, director, Facilities
                                 Programs at (703) 248-2270 or me at (703) 248-2300.


                                    //Signed//
                                 Sylvia L. Owens
                                 Assistant Inspector General
                                  for Revenue Cost/Containment

                                 cc: John R. Gunnels




                                                     3
                                           Restricted Information
Asbestos Abatement at                                               FA-MA-00-001
 United States Postal Service Facilities


                          APPENDIX. MANAGEMENT’S COMMENTS




                                                     4
                                           Restricted Information
Asbestos Abatement at                                               FA-MA-00-001
 United States Postal Service Facilities




                                                     5
                                           Restricted Information
Asbestos Abatement at                                               FA-MA-00-001
 United States Postal Service Facilities




                                                     6
                                           Restricted Information
Asbestos Abatement at                                               FA-MA-00-001
 United States Postal Service Facilities




                                                     7
                                           Restricted Information
Asbestos Abatement at                                               FA-MA-00-001
 United States Postal Service Facilities




Major Contributors to           Michael Striglers
the Report                      Vladimir Filzow
                                Henry Hoffman
                                Anthony Cannarella




                                                     8
                                           Restricted Information
